Prepared by PrintingHouse Press, Ltd.10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATEOFNEWYORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 10/15/2019 deponent caused to be served 3 copy(s) of the within
Reply Brief for Petitioner
upon the attorneys at the address below, and by the following method:
By Overnipt Deliver:y
RandaD D. Unger, Esq.
Attorney for Respondent
125-10 Queens Boulevard
Suite 5
Kew Gardens, NY 11415

Sworn to me this

Case Name: The State ofNew York v. Jahmarley Jones

Tuesday, October 15,2019
Antoine Victoria Robertson Coston
Notary Public, State ofNew York
No.OIR06286SIS
Qualified in Nassau County
Commission Expires on 712912021

Docket/Case No: 2018-02147
Index:

